HHS/OIG, Audit -"Review Of Maricopa Integrated Health System's Compliance With Medicare+Choice Prompt Payment
Regulations During The Period May 1, 2003 Through October 31, 2003,"(A-09-04-00026)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Maricopa Integrated Health System's Compliance With Medicare+Choice Prompt Payment Regulations During
The Period May 1, 2003 Through October 31, 2003," (A-09-04-00026)
August 11, 2004
Complete
Text of Report is available in PDF format (377 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Maricopa Integrated Health System Health Plans (Maricopa) complied
with M+C prompt payment regulations to timely pay or deny claims submitted by noncontracted providers during the period
May 1, 2003 through October 31, 2003.  Maricopas compliance with prompt payment regulations could
not be determined because its claims processing data was inaccurate and incomplete.  The data was inaccurate and incomplete
because Maricopa did not (1) design and implement an electronic claims processing system that properly processed M+C claims
and (2) establish adequate policies and procedures to record information necessary to properly track claims in its manual
claims processing system.  After completion of our fieldwork, Maricopa initiated a search for an outside contractor
to process claims.  We recommended that Maricopa (1) design and implement an electronic system, or contract with an
outside organization, to process M+C claims correctly; and (2) establish adequate policies and procedures to ensure that
all information recorded in the M+C claims processing systems is accurate and complete.  Maricopa concurred with our
findings.